HHS/OIG-AUDIT--Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid Prescription Drug Program of the New Jersey Department of Human Services (A-06-95-00070)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid
Prescription Drug Program of the New Jersey Department of Human Services," (A-06-95-00070)
December 6, 1996
Complete
Text of Report is available in PDF format (844 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
At the request of the Health Care Financing Administration (HCFA), the Office
of Inspector General (OIG) conducted a nationwide review of pharmacy acquisition
costs for drugs reimbursed under the Medicaid prescription drug program. Since
most States reimburse pharmacies for Medicaid prescriptions using a formula which
discounts the average wholesale price (AWP), the objective of our review was to
develop an estimate of the discount below AWP at which pharmacies purchase brand
name and generic drugs.
To accomplish our objective, we selected a random sample of 11 States from a universe
of 48 States and the District of Columbia. Arizona was excluded from the universe
of States because the Medicaid drug program is a demonstration project using prepaid
capitation financing and Tennessee was excluded because of a waiver received to
implement a statewide managed care program for Medicaid. New Jersey was one of
the sample States selected, as well as California, Delaware, District of Columbia,
Florida, Maryland, Missouri, Montana, Nebraska, North Carolina, and Virginia.
Additionally, we selected a sample of Medicaid pharmacy providers from each State
and obtained invoices of their drug purchases. The pharmacies were selected from
each of five categories--rural-chain, rural-independent, urban-chain, urban-independent,
and non-traditional pharmacies (nursing home pharmacies, hospital pharmacies, etc.).
We included the non-traditional category so as to be able to exclude those pharmacies
from our overall estimates. We believed such pharmacies purchase drugs at substantially
greater discounts than retail pharmacies, and including them would have inflated
our percentages.
We compared each invoice drug price to AWP for that drug and calculated the percentage,
if any, by which the invoice price was discounted below AWP. We then projected
those differences to the universe of pharmacies in each category for each State
and calculated an overall estimate for each State. Additionally, we projected the
results from each State to estimate the nationwide difference between AWP and invoice
price for each category.
In New Jersey, we obtained pricing information from 14 pharmacies. Specifically,
we obtained 462 invoice prices for brand name drugs, and 192 invoice prices for
generic drugs. For New Jersey, the overall estimate of the extent that invoice
prices were discounted below AWP was 19.8 percent for brand name drugs and 39.9
percent for generic drugs. The national estimates are 18.3 percent and 42.5 percent,
respectively. The national estimates combine the results for four categories of
pharmacies including rural-chain, rural-independent, urban-chain, and urban-independent.
The New Jersey estimates do not include any rural categories. None of the estimates
include the results obtained from non-traditional pharmacies.
We are recommending that the New Jersey Department of Human Services (State Agency)
consider the results of this review as a factor in any future changes to pharmacy
reimbursement for Medicaid drugs. We will share the information with HCFA from
all 11 States in a consolidation report for their use in evaluating the overall
Medicaid drug program.
The Commissioner of the State Agency responded to our draft report in a letter
dated, October 30, 1996. The Commissioner stated that the State Agency had lowered
Medicaid drug reimbursement from AWP less 2 to 8 percent, based on a pharmacy's
prescription volume, to a flat AWP less 10 percent for all pharmacies. The Commissioner
indicated that results of our review provided support for their decision to change
reimbursement methodology.